           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    THE GOLD CREST CARE CENTER – AN
 ORGANIZATIONAL REPRESENTATIVE PAYEE
FOR THE SOCIAL SECURITY ADMINISTRATION


      August 2012    A-02-11-11161




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   August 6, 2012                                                             Refer To:

To:     Beatrice M. Disman
        Regional Commissioner
         New York

From:   Inspector General

Subject: The Gold Crest Care Center – An Organizational Representative Payee for the Social
        Security Administration (A-02-11-11161)


        OBJECTIVE
        Our objectives were to determine whether the Gold Crest Care Center (GCCC), an
        organizational representative payee for the Social Security Administration (SSA),
        (1) had effective controls over the receipt and disbursement of Old-Age, Survivors and
        Disability Insurance (OASDI) and Supplemental Security Income (SSI) payments and
        (2) managed payments in accordance with SSA’s policies and procedures.

        BACKGROUND

        Congress granted SSA the authority to appoint representative payees to receive and
        manage the benefit payments of beneficiaries who cannot manage their finances
        because of their youth or mental and/or physical impairments. 1 SSA selects
        representative payees for OASDI beneficiaries 2 or SSI recipients 3 when representative
        payments would serve the individuals’ interests. 4 Representative payees are




        1
            Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I).
        2
         The OASDI program provides retirement and disability benefits to qualified individuals and their
        dependents as well as to survivors of insured workers. Social Security Act § 202 et seq., 42 U.S.C. §
        402 et seq.
        3
         The SSI program provides payments to individuals who have limited income and resources and who are
        age 65 or older, blind, or disabled. Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
        4
            Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I).
Page 2 - Beatrice M. Disman


responsible for managing benefits in the best interest 5 of the beneficiary, 6 and they may
be an individual or an organization. Refer to Appendix C for additional representative
payee responsibilities.

GCCC is a 175-bed skilled nursing home facility in the Bronx, New York. During our
audit period, November 1, 2010 to October 31, 2011, GCCC served as representative
payee for 37 beneficiaries. Before we began our audit, we found that GCCC managed
funds for 84 other SSA beneficiaries for whom it was not the payee of record. These
beneficiaries resided in the facility and allowed GCCC to manage their benefits. 7

For the OASDI beneficiaries GCCC represented, it retained $50 per month from their
benefits for their personal needs allowances (PNA) and used the remaining funds for
the cost-of-care it provided. Since Medicaid covers the cost-of-care for the SSI
recipients, SSA provided them a $30 per month PNA, which GCCC retained for their
personal needs.

A 2008 Office of the Inspector General investigation led to the conviction of a GCCC
employee who misused SSA benefits intended for GCCC residents. Because of the
past misuse, we determined whether the representative payee had adequate controls
over SSA funds received on behalf of the beneficiaries it represented.

We reviewed all 37 beneficiaries for whom GCCC served as representative payee to
determine whether GCCC properly managed their benefits in accordance with SSA
policies and procedures. Additionally, we reviewed a sample of the other 84 8
beneficiaries who allowed GCCC to manage their benefits. See Appendix B for our
scope and methodology.

RESULTS OF REVIEW

GCCC accurately recorded the receipt and disbursement of Social Security benefits,
spent funds appropriately, and appeared to meet the beneficiaries’ basic needs.
However, it did not manage benefit payments in accordance with some of SSA’s
policies and procedures.



5
    20 C.F.R. §§ 404.2035(a) and 416.635(a).
6
  We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
7
    We use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
8
  We initially identified 36 beneficiaries for whom GCCC served as representative payee and 85 other
beneficiaries who allowed GCCC to manage their benefits. Upon reviewing a selected sample of 30 of
the 85 beneficiaries, we determined that GCCC was the representative payee for one of the beneficiaries.
The individual was not on the original list provided by GCCC of the beneficiaries for which it was the
representative payee.
Page 3 - Beatrice M. Disman


RECEIPT AND DISBURSMENT OF BENEFITS

During our audit period, GCCC received benefit checks for the beneficiaries it
represented. It photocopied the checks and kept a log of every check received. When
disbursing funds, GCCC maintained sufficient documentation to support expenditures.

We interviewed 12 beneficiaries to determine whether they thought GCCC met their
basic needs. The beneficiaries reported they were well cared for and satisfied with
GCCC’s management of their funds.

MANAGEMENT OF BENEFITS

While GCCC accurately recorded the receipt and disbursement of Social Security
benefits, it did not manage payments in accordance with some of SSA’s policies and
procedures. Specifically, GCCC

•      commingled beneficiaries’ funds with its operating account,
•      used SSI recipients’ payments for their cost-of-care,
•      did not report changes in beneficiaries’ circumstances to SSA,
•      did not spend the required amount of at least $360 per year for the beneficiaries’
       personal needs, and
•      did not return beneficiaries’ conserved funds to SSA in accordance with SSA policies
       when it no longer served as the representative payee.

Commingled Beneficiary Funds

Generally, GCCC should not commingle beneficiary funds with payees’ personal or
organizational operating funds. 9 During our audit period, GCCC commingled
beneficiaries’ funds with its operating funds. SSA policy required that the representative
payee deposit funds in an account titled to show the payee had only a fiduciary interest
in the funds. 10 GCCC deposited SSA payments received on behalf of OASDI
beneficiaries to its operating account, retained the majority of the payments to
reimburse itself for cost-of-care, and issued $50 to each beneficiary’s account for their
PNA. GCCC followed the same procedures for the SSI recipients and issued $30 in
PNA to each recipient’s account. GCCC corrected this practice in December 2011. As
of that date, beneficiaries were receiving SSA payments by direct deposit to individual
accounts.



9
 SSA, POMS, GN 00603.010 A (June 5, 2008). There are certain limited exceptions that do not apply to
GCCC. For example, in some cases, parents, spouses, and State or local organizational payees do not
have to maintain separate accounts. See SSA, POMS, GN 00603.010 B.1. (June 5, 2008)
10
     Id.
Page 4 - Beatrice M. Disman


Use of Recipient’s SSI Payment for Cost-of-Care

According to SSA policy, any SSI payments due a recipient who resides in an institution
receiving Medicaid funds are for personal needs only and may not be used for
institutional charges for care. 11 GCCC retained SSI payments totaling $8,776 to pay for
three recipients’ costs-of-care.

GCCC retained $948 from $1,148 in SSI payments received on behalf of two SSI
recipients for whom it served as the representative payee. The $948 belonged to the
recipients for their PNA. However, GCCC used the payment to pay for the cost-of-care
it provided. In a similar manner, GCCC retained $7,828 from $8,088 in SSI payments
that belonged to another SSI recipient for whom it was not the payee of record. The
recipient received the payments in error and had an $8,028 overpayment on her
record. 12 Since GCCC retained the payments, SSA should pursue collection from
GCCC to resolve the overpayment.

Reporting Changes in Beneficiary Circumstances

One of a representative payee’s responsibilities is to notify SSA of any event that may
affect the beneficiary’s entitlement or payment amount. 13 GCCC did not report some
beneficiaries’ deaths to SSA. Specifically, GCCC did not notify SSA of the death of a
beneficiary in September 2011 for whom it served as a representative payee. Also,
GCCC did not report the February 2011 death of a beneficiary for whom it was not the
representative payee but for whom it managed benefits.

GCCC staff stated they were uncertain whether the beneficiaries passed away in the
nursing home or after they transferred to hospitals. GCCC did not learn of the
beneficiaries’ deaths until it received invoices from funeral homes for unpaid funeral
expenses. SSA records did not indicate the beneficiaries had died. As of the date of
this report, the records for both beneficiaries were in suspension status for the
development of addresses. 14 We informed SSA that the beneficiaries were deceased
and requested that it update its records accordingly.



11
     SSA, POMS, GN 00603.050 A (September 4, 2002).
12
  The error was due to an inaccurate determination of the recipient’s living arrangement by SSA. A
recipient’s living arrangement can affect the SSI payment amount. From March to August 2011, the
recipient received $1,368 per month based on a living arrangement of an individual residing in a privately
operated, non-medical residential facility for adults, or certain adults with disabilities, certified by the
appropriate State agency. Residents in GCCC are entitled to receive $30 from SSI based on a living
arrangement of an individual residing in a public or private medical institution where Medicaid is paying
more than 50 percent of the cost-of-care.
13
     20 C.F.R. §§ 404.2035(d) and 416.635(d).
14
  SSA may suspend a beneficiary’s benefit if it is determined that the beneficiary’s address should be
verified or a notice is returned as “Undeliverable” and the correct address cannot be promptly verified.
Page 5 - Beatrice M. Disman


PNA Spent

SSA policy generally requires that payees spend a minimum of $30 per month, or
$360 per year, for the personal needs of any beneficiary who resides in any institution,
such as a nursing home. 15 We reviewed the personal ledgers of the 37 beneficiaries for
whom GCCC was the representative payee of record and found GCCC did not spend
the required amount on PNA for 19.

Personal needs items include, but are not limited to,

•      clothing;
•      personal articles, such as cosmetics and grooming aids;
•      furnishings, such as quilts, pictures, and a recliner;
•      medical expenses or equipment not supplied by the care facility or State/Federal
       programs, such as hearing aids, eyeglasses, and special wheelchairs; or
•      miscellaneous items, such as movie tickets, restaurant meals, and magazine
       subscriptions.

GCCC stated it did not spend the required amount because some beneficiaries’ families
had purchased personal items for the beneficiaries. However, it is the representative
payee’s responsibility to ascertain the beneficiaries’ current and foreseeable needs and
spend at least $360 a year on those needs. If it is not possible to spend the required
$360, the representative payee should document the circumstances and inform SSA. 16

Conserved Funds

When a beneficiary dies, SSA policy provides that a representative payee should turn
over conserved funds to the legal representative of the beneficiary’s estate. 17 For a
beneficiary with a successor payee, SSA generally requires that the payee return
conserved funds to SSA after the payee’s service to a beneficiary end. SSA then
reissues the conserved funds to the successor payee so they are available for the
beneficiary’s needs. 18

15
  SSA, POMS, GN00605.067 D.3. and G (August 18, 2007). If the amount of benefits paid throughout
the reporting period is less than $360, the payee is expected to spend that amount on the beneficiary’s
personal needs. In rare circumstances, spending $30 per month may not be appropriate, but, in these
cases, the circumstances should be clearly documented either by the payee on the annual reporting form
or by SSA personnel following any necessary development. Id.
16
     Id.
17
 SSA, POMS, GN 00603.100.B.2 (May 5, 2011); See also SSA, Guide for Organizational
Representative Payee – Conserved Funds After the Beneficiary Dies.
18
  SSA, POMS, GN 00605.370.A (August 20, 2010), GN 00603.055.A (December 6, 2010), GN
00502.113.C.1 (October 13, 2011); See also SSA, Guide for Organizational Representative Payee –
Conserved Funds After You Stop Being Payee.
Page 6 - Beatrice M. Disman


GCCC did not return two beneficiaries’ conserved funds, 19 totaling $1,907, to SSA.
Instead, it transferred the conserved funds to the nursing homes in which the
beneficiaries later resided. We also found GCCC retained the conserved funds of $324
from a deceased beneficiary for whom it was not the payee of record. GCCC did not
transfer the conserved funds to the beneficiary’s estate until more than 6 months after
the beneficiary’s death.

UNREPRESENTED BENEFICIARIES

GCCC received and managed payments for 84 beneficiaries for whom it was not the
representative payee of record. All 84 beneficiaries resided in GCCC. Per GCCC staff,
the beneficiaries preferred that GCCC handle their funds, as opposed to an outside
bank, and GCCC preferred this arrangement since it helped ensure it received funds for
the cost-of-care. While GCCC reported both parties preferred this arrangement, it may
constitute an assignment-like situation in which the claimant shares control of the funds
for his or her benefit with an entity that has an interest in charging or collecting money
from the claimant.

We interviewed three beneficiaries for whom GCCC was not the representative payee
of record. One beneficiary was unable to respond to any of our questions. The two
other beneficiaries provided very limited responses. Since most of the residents in
GCCC are aged or disabled, they may be incapable of managing or directing the
management of their benefit payments. Therefore, SSA should determine whether the
interests of these beneficiaries would be better served by designating a representative
payee.

CONCLUSION AND RECOMMENDATIONS

While GCCC managed Social Security benefits in a manner for the good of the
beneficiaries it represented, it did not always adhere to some of SSA’s policies and
procedures. Accordingly, we recommend that SSA:

1. Instruct GCCC to return $948 of PNA to the individual accounts of two SSI
   recipients.
2. Pursue collection from GCCC of the $8,028 in overpayments that resulted from an
   inaccurate living arrangement determination of an SSI recipient.
3. Remind GCCC to (a) notify the Agency timely when a beneficiary is deceased or no
   longer in its care and (b) return benefit payments and conserved funds to SSA when
   no longer serving as representative payee for a beneficiary.
4. Remind GCCC of the requirement to spend at least $360 per year for each
   beneficiary’s personal needs or inform SSA of the circumstance that prevents it from
   doing so.

19
  Conserved funds are the benefits remaining (or invested) after the immediate or reasonably
foreseeable needs of the beneficiary are met. See SSA, POMS, GN 00603.001 A (November 15, 2004).
Page 7 - Beatrice M. Disman


5. Determine whether to assign a representative payee for beneficiaries who reside in
   GCCC and for whom GCCC manages benefits but who do not have a representative
   payee on record.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS AND OIG
RESPONSE

GCCC generally agreed with our Recommendations. SSA agreed with
Recommendations 3 and 5. In response to Recommendation 1, SSA stated, in part,
that it needed to determine whether the $948 paid a valid debt to GCCC. Per SSA, the
payee may use past-due benefits to pay for past care and maintenance if the creditor is
a Title XIX facility in which the recipient resides. GCCC stated that it applied the $948
to the recipients’ cost-of-care for the month it received the payments. Since the
payments were not used to pay for past care and maintenance, GCCC should return the
$948 to the individual accounts.

In disagreeing with Recommendation 2, SSA stated it could not pursue collection of the
overpayment from GCCC because GCCC was not the representative payee. While
GCCC was not the official representative payee for the recipient, it managed the
recipient’s funds and used the funds to pay itself for the recipient’s cost-of-care. GCCC
continues managing payments for the recipient without being the representative payee.
This practice makes it troublesome for SSA to recoup the overpayment. GCCC
requested that we provide an explanation of the overpayment and instruction on how to
return the funds to SSA. We forwarded the overpayment notice to GCCC and advised it
to return the SSI payment to the local SSA field office.

In disagreeing with Recommendation 4, SSA stated that its policy requires the
representative payee to use or save $30 per month for the recipient’s personal needs.
Per our review of the policy, representative payees should spend a minimum of $30 per
month for the personal needs of any beneficiary who resides in a nursing home unless
the amount of benefits paid throughout the report period is less than $360. 20 The policy
also states that, in rare circumstances, spending $30 per month on personal needs may
not be appropriate. In these cases, the circumstances should be clearly documented
either by the representative payee on the annual accounting report, which GCCC did
not do, or by SSA personnel following any necessary development. GCCC stated that it
would appropriately document any future instances of not spending the required
amount.




                                              Patrick P. O’Carroll, Jr.



20
     SSA, POMS, GN 00605.067 D.3 (August 18, 2007).
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Representative Payee Responsibilities and Social Security
             Administration Oversight
APPENDIX D – Agency Comments
APPENDIX E – Representative Payee Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulation
ERPA     Electronic Representative Payee Accounting
GCCC     Gold Crest Care Center
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
PNA      Personal Needs Allowances
POMS     Program Operations Manual System
RPS      Representative Payee System
SSA      Social Security Administration
SSI      Supplemental Security Income
                                                                     Appendix B

Scope and Methodology
Our audit covered the period November 1, 2010 through October 31, 2011. To
accomplish our objectives, we:

•   Reviewed the Social Security Act, applicable Federal regulations, and the Social
    Security Administration’s (SSA) policies and procedures pertaining to representative
    payees.

•   Reviewed prior Office of the Inspector General and SSA work in the representative
    payee area.

•   Contacted SSA’s New York Regional Office to obtain background information and
    prior audits regarding the individual representative payee.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were served by the Gold Crest Care Center (GCCC) during the audit period.

•   Interviewed GCCC management and obtained beneficiary information and available
    financial records, including a list of individuals who had GCCC as a representative
    payee and had received SSA funds at some point during the audit period.

•   Compared the RPS list, Master Beneficiary Record, and Supplemental Security
    Record and reconciled them to GCCC’s list to identify the population of SSA
    beneficiaries served by GCCC during the audit period.

•   Created and reviewed a data extract from SSA’s system to determine whether
    payments were sent to GCCC when GCCC was not the beneficiary’s official
    representative payee.

•   Initially, we identified 36 beneficiaries for whom GCCC served as representative
    payee and 85 beneficiaries who allowed GCCC to manage their benefits without
    being their representative payee. We performed a 100-percent review of the
    population of 36 beneficiaries for whom GCCC served as the representative payee
    during the audit period and randomly selected a sample of 30 beneficiaries from the
    85 beneficiaries who did not have a payee, but allowed GCCC to manage their
    benefit payments during the audit period. Upon review of the sample, we
    determined that GCCC was the representative payee for 1 of the 30 beneficiaries.
    The individual was not on the original list provided by GCCC of beneficiaries for
    which it was representative payee.




                                           B-1
•   We performed the following tests for the 66 beneficiaries.

    -   Compared and reconciled benefit amounts received according to GCCC’s
        records to benefit amounts paid according to SSA’s records.

    -   Reviewed GCCC’s accounting records to determine whether benefits were
        properly spent or conserved on the individual’s behalf.

    -   Traced all recorded expenses to available source documents and examined the
        documentation for reasonableness and authenticity.

•   We reviewed the most current Electronic Representative Payee Accounting (ERPA)
    reports for 20 of the 37 beneficiaries GCCC represented to determine whether the
    representative payee properly reported to SSA how they used the benefits. For the
    remaining beneficiaries, the ERPA reporting period (10 beneficiaries) was not within
    the audit period or GCCC was not issued an ERPA (7 beneficiaries).

•   To determine whether their basic needs were being met, we observed the living
    conditions and interviewed nine beneficiaries for whom GCCC served as the
    representative payee and three beneficiaries who did not have a payee but allowed
    GCCC to manage their benefit payments.

We tested the data obtained for our audit and determined they were sufficiently reliable
to meet our objective. We performed our fieldwork at GCCC’s administrative offices in
the Bronx, New York, in February 2012. We conducted additional analysis at the New
York Audit Division in March 2012.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                           B-2
                                                                        Appendix C

Representative Payee Responsibilities and
Social Security Administration Oversight
Representative Payee Responsibilities

Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

•     Determine the beneficiary’s current needs for day-to-day living and use his/her
      payments to meet those needs.

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•     Maintain accounting records of how the benefits are received and used.

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested.

•     Return any payments to SSA for which the beneficiary is not entitled.

•     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

•     Be aware of any other income Supplemental Security Income recipients may have.

•     Monitor their conserved fund balances to ensure they do not exceed resource limits.




1
    20 C.F.R. §§ 404.2035 and 416.635.


                                             C-1
SSA Oversight

To oversee its representative payees, SSA implemented the Expanded Monitoring
Program for fee-for-service and volume payees and the Onsite Review Program for
State institutions. Under the Expanded Monitoring Program, SSA conducts a site
review of all fee-for-service and volume payees at least once every 3 years.
Fee-for-service and volume payees are also subject to random reviews, quick response
checks, and educational visits. The purpose of the Expanded Monitoring Program is to
(1) allow SSA to determine whether representative payees are performing satisfactorily,
(2) deter potential misuse, (3) keep the lines of communication open between
representative payees and local SSA offices, (4) reinforce SSA’s efforts to educate
representative payees about their duties and responsibilities, and (5) be responsive and
proactive in determining what representative payees need from SSA.




                                          C-2
                                                                           Appendix D

Agency Comments

June 28, 2011
Subject: OIG Audit Signed Draft Report (A-02-11-11161)-Gold Crest Care Center-An
Organizational Rep Payee: NY REPLY


Thank you for the opportunity to comment on each of the recommendations regarding
the OIG Audit No A-02-11-11161 The Gold Crest Care Center-An Organizational
Representative Payee.

Recommendation #1
SSA reserves agreement to recommendation #1 pending further information. Both
beneficiaries (beneficiaries’ names redacted) received retroactive benefits in the months
shown below. Before we can agree to the recommendation, we would need to know if
the funds were used to pay a valid debt to GCCC or should be returned to the
beneficiaries.

According to GN 00602.030 B, a payee does not need SSA approval to pay a valid
debit if he/she determines it is in the beneficiary’s best interest, unless the payee is also
the creditor. A creditor payee must obtain SSA approval prior to using benefits for
self-reimbursement. Exception: If the creditor is a title XIX facility in which the title II or
title XVI beneficiary resides, the payee must allocate two month’s personal needs
allowance ($60) to the beneficiary’s resident account. The payee then may use
remaining past-due benefits to pay for past care and maintenance without obtaining
SSA approval.

(Name redacted) received:
    • $90 check mailed 4/19/2011 for months 2/11-4/11
    • $30 check for 5/1/2011
    • $788 check mailed 5/3/2011 for months 12/2008-10/2009
 Total $908

(Name redacted) received:
   • $210 check mailed 8/12/2011 for months 7/00-5/01
   • $30 check mailed 8/1/2011
Total $240




                                              D-1
Recommendation #2
SSA disagrees with recommendation #2. GCCC was not the payee at the time of the
incorrect living arrangement. According to SSA policy, we cannot pursue the collection
of the overpayment of $8,028 (beneficiary’s name redacted) from GCCC because the
home was not the representative payee. Further investigation from OIG may be
warranted to determine if GCCC intentionally kept the improper payments.

Recommendation #3
SSA agrees with recommendation #3.

Recommendation #4
SSA disagrees with recommendation #4. Per GN 00605.067D.3 regulations require
that a title XVI recipient in a title XIX facility, receive the SSI standard payment amount
for the recipient’s personal needs or saved on his behalf. Further GN 00602.010B.2.
states payees should set aside a minimum of $30 per month to be used for the
beneficiary’s personal needs or saved on his/her behalf. The payee is required to allot
a minimum of $30 a month and any unspent monthly personal needs be saved. The
payee is not required to spend the total amount.

Recommendation #5
SSA agrees with recommendation 5 and will conduct capability determinations for the
beneficiaries who reside in GCCC and for whom GCCC manages benefits but is not the
representative payee of record.


Questions regarding the above may be directed to Angela Caruso of the Center for
Programs Support at 212-264-4402.

                                           /s/
                                  Julio Infiesta
                                  ARC-MOS, NY




                                            D-2
                                                                      Appendix E

Representative Payee Comments

July 15, 2012
Subject: Goldcrest

Thank you for your assistance Vincent.

Regarding (name redacted) and (name redacted), the money was applied to the months
it was received.

For (name redacted), we need some sort of letter identifying that overpayments were
made and how much she should have received. As she was receiving a higher amount,
she was given $50 of the Social Security check as would be the case with any typical
Medicaid resident. Once we have that information, we can begin to reduce her SSI
payment allocation to repay SSA for the overpayments she received (She does NOT
currently have sufficient funds to repay the $180 or so that I believe she received in
error.) We will also need instructions on refunding the overpayments which were
retained by the facility, assuming that is the decision of SSA.

Regarding the $360, a number of the residents spent the $360, or very close to it.
Additionally, as the residents are alert, they are spending their own money even though
the facility acts as Rep Payee. For example, (name redacted), (name redacted), (name
redacted), (name redacted), (name redacted), and (name redacted) spent money on the
beautician, clothing items, and also take out cash on a regular basis. The residents in
general are very possessive of their funds and do not want the facility to spend the
$360 for them. Were we to spend it for them then tell them they can't take money out
for the vending machines, for example, they become very agitated.

Some of them wish to conserve their money, and the family provides them with
$360 worth of personal items. For example, (name redacted) and (name redacted) had
family who would pay for things to maintain funds in resident accounts, ultimately using
them for burial if not spent by resident. (Name redacted) does not WANT her money
spent.

Some of the larger expenditures on clothing were: (name redacted) $265, (name
redacted) $335, (name redacted) $350, (name redacted) $251.




                                          E-1
Understanding that the intent of the law is to allow the residents to enjoy more than just
basic room and board, we believe we have been fulfilling that. Going forward, we will
take more care to report more clearly in the annual reports.

Thank you,

Jonathan Gewirtz




                                            E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Vincent Huang, Program Analyst

   Brennan Kraje, Statistician

   William Kearns, IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-02-11-11161.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
